<html>
<title> - EFFECTIVE COMMUNITY EFFORTS TO COUNTER DRUG-RELATED CRIME IN RURAL AMERICA</title>
<body><pre>[Senate Hearing 111-642]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 111-642

  EFFECTIVE COMMUNITY EFFORTS TO COUNTER DRUG-RELATED CRIME IN RURAL 
                                AMERICA

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2010

                               __________

                             BARRE, VERMONT

                               __________

                          Serial No. J-111-82

                               __________

         Printed for the use of the Committee on the Judiciary






                  U.S. GOVERNMENT PRINTING OFFICE
61-549 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    51
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     4

                               WITNESSES

Floersch, Barbara, Associate Director, Washington County Youth 
  Service Bureau/Boys & Girls Club, Montpelier, Vermont..........    12
Graduate, Susan, Vermont Works for Women's Modular Home 
  Construction Program at Northwest State Correctional Facility, 
  Burlington, Vermont............................................    15
Kerlikowske, R. Gil, Director, Office of National Drug Control 
  Police, Washington, DC.........................................     7
L'Esperance, Colonel Tom, Director, Vermont State Police 
  Waterbury, Vermont.............................................     9
Lauzon, Thomas, Mayor, Barre, Vermont............................     4
Quadros, Damartin, Business Owner, Barre, Vermont................    16

                       SUBMISSIONS FOR THE RECORD

Ecker-Racz, Nicholas, Parent, Glover, Vermont, letter............    28
Floersch, Barbara, Associate Director, Washington County Youth 
  Service Bureau/Boys & Girls Club, Montpelier, Vermont, 
  statement......................................................    30
Susan, Vermont Works for Women's Modular Home Construction 
  Program at Northwest State Correctional Facility, Burlington, 
  Vermont, statement.............................................    33
Kerlikowske, R. Gil, Director, Office of National Drug Control 
  Police, Washington, DC, statement..............................    35
L'Esperance, Colonel Tom, Director, Vermont State Police 
  Waterbury, Vermont, statement and attachment...................    43
Lauzon, Thomas J., Mayor, City of Barre, Barre, Vermont, 
  statement......................................................    46
Lawson, Karen, Housing Coordinator, study........................    49
Manning, Scott D., Northfield, Vermont, letter...................    55
Oden, Sherri, Principal Investigtor, Head Start, study...........    58
Peterson, Christine, Director of New Directions for Barre, Barre, 
  Vermont, Survey................................................    60
Quadros, Damartin, Business Owner, Barre, Vermont, statement.....    67
Rex, Judy, Executive Director, Vermont Center for Crime Victim 
  Services, Waterbury, Vermont, letter...........................    69
Taylor, Gary L., Chief, St. Albans City Police, St. Albans, 
  Vermont, statement.............................................    72
Vermont Center for Afterschool Excellence, Burlington, Vermont, 
  program........................................................    76
Vermont State Police, St. Albans City Police Department, DDACTS 
  Program, case study............................................    78
Vermont, 21st CCLC 2008 Annual Performance Report, report........    96
Vermont Works for Women, statement...............................   114
Women, Girls & Criminal Justice, Direct, article.................   117

 
  EFFECTIVE COMMUNITY EFFORTS TO COUNTER DRUG-RELATED CRIME IN RURAL 
                                AMERICA

                              ----------                              


                         MONDAY, MARCH 22, 2010

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 9:30 a.m., in 
Barre City Auditorium, Barre, Vermont, Hon. Patrick J. Leahy, 
Chairman of the Committee, presiding.
    Present: Senators Leahy and Whitehouse.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. I guess these microphone are 
live. Just so I can go over some of the rules. I'm Patrick 
Leahy and of course I say that knowing almost three-quarters of 
the people in this room. It is good to be in Barre. It is a 
special thrill to be here because my father was born here in 
Barre and it's always been a special place.
    We have a number of very good witnesses here. We have 
Federal, state, and local law enforcement, elected officials, 
government experts, teachers, concerned parents and citizens. 
All of those who work in prevention and treatment.
    What I am going to do is keep our record open for one week 
so people after the hearing, if they hear something they would 
like to add to, can submit further testimony and it will be 
made part of the record. And, of course, everybody who 
testifies, they will see the transcript of what they have to 
say and if they afterward wish to add to that, they will be 
able to.
    This will be done under the normal rules of the Senate 
Judiciary Committee.
    I am fortunate to be joined by Senator Sheldon Whitehouse 
of Rhode Island. Senator Whitehouse is no stranger to law 
enforcement. He was U.S. Attorney and Attorney General of his 
state; and is one of the most distinguished and knowledgeable 
members of the Senate Judiciary Committee.
    I have received written testimony from Chief Gary Taylor of 
St. Albans who detailed the significant new law enforcement and 
community efforts to combat drug-related crime in St. Albans 
which has already been translated into a large drop in crime in 
that community.
    I have received testimony from Mayor Chris Louras of 
Rutland stating the real progress and community mobilization 
there as well. And the important thing, we held hearings of the 
Senate Judiciary Committee in both those communities. And, 
again, because I want to bring us out of Washington. We could 
have all kinds of hearings in Washington, and they are 
important, but I like everybody in law enforcement to remember 
that we have small cities and towns too, not just major urban 
areas and to know about this. And as a result we also have U.S. 
Marshal Dave Demag is here with us today and ATF resident agent 
in charge Jim Mostyn, and, of course, I mentioned Chris Laurus, 
the Mayor of Rutland and Kerry Taylor. I know that Ethan really 
is here representing Senator Sanders and Tom Tremblay.
    And if I leave somebody out, don't worry, I will add to 
this in the record.
    Tom Tremblay is the Commissioner of Public Safety and of 
course, Colonel L'Esperance, Tom L'Esperance, Jay Powell and 
the Executive Director of New England HIDTA. Roger Marcoux, the 
Memorial County Sheriff; Montpelier High School teacher Myles 
Chater. Where is Myles Chater? I see him. You have a lot of 
students here with you, Mr. Chader, and I'm glad to have them.
    Representative MacDonald and Senator Cummings, James Lee, 
the U.S. Attorney's Office. Trevor Whipple, the Chief of the 
South Burlington Police who knows this community well having 
been chief of police here in the past. In fact, there's where 
Chief Whipple and I first met.
    Mary Leahy who runs the Central Vermont Adult Basic 
Education is here. My favorite sister, I should say for the 
record.
    [Laughter.]
    Chairman Leahy. Well, it's my only sister, but she would 
still be my favorite one.
    [Laughter.]
    Chairman Leahy. But I think that in Vermont, Senator 
Whitehouse, I should tell you in Vermont we have this ``all 
hands on deck'' approach to dealing with serious problems. And 
we do this because in small cities and towns, as you know from 
Rhode Island, you have to all come together. There is no one 
group that can solve a problem. That is why I held these 
hearings in Rutland and in St. Albans. And we take this issue 
seriously.
    I know Senator Whitehouse has been in so many of these 
hearings before in Washington on them and we will hear 
testimony today from President Obama's head of the Office of 
National Drug Control Policy Director, Gil Kerlikowske.
    And the director, I had the honor of presiding on his 
confirmation hearing before the U.S. Senate. And he was 
confirmed unanimously in the Senate. Not too many times 
recently have we been doing things unanimously.
    And he knows, and we talked about this last night at 
dinner, that this is not just a big city issue. It's a serious 
and continuing problem in rural communities like Vermont and 
across the country. The problems here in Barre, like many other 
small communities are serious. But the good thing is the people 
in Barre aren't taking it lying down. They're fighting back. 
They've worked aggressively with law enforcement, but they've 
also emphasized prevention and treatment matters.
    I know very well from my own time as a State's Attorney 
prosecuting major drug cases, a strong and effective law 
enforcement is a very central piece of the puzzle in combating 
drugs, but I don't think enough was done during the past decade 
from the Federal Government to help hard-working state and 
local police. We saw cuts in Federal funding and economic 
difficulties led to vacancies in local police departments and 
state police departments.
    But in trying to reverse this, last year's recovery 
legislation included a massive and much-needed infusion of 
Federal funds to fund state and local police. And I have talked 
and worked with many of you as we were preparing that 
legislation.
    We have restored funding to the cops and burn grant 
programs which funds state and local law enforcement. We've 
brought back the rural drug enforcement assistance grant 
program. Again, the emphasis I brought that this is not just a 
big-city problem, but yet rural problems too.
    So, with that, I think even in bad economic times to be 
able to hire police officers and use innovative programs. And 
I've heard from police here in Vermont that the assistance is 
making a real difference. Support for state and local police 
along with the funding for the Vermont Drug Task Force, the New 
England High Intensity Drug Trafficking Area Program again have 
helped. And I appreciate this very much.
    But I also want--one of the things we will hear from the 
Mayor is that it can't just be law enforcement. The one thing I 
hear every single place I go, don't count just on law 
enforcement. The whole community has to be involved to solve 
these problems. Here we've had the problem of--in Barre and the 
surrounding area hit with drug networks from outside the state. 
Heroin imported by them. Then we see break-ins and other crimes 
that result from drug users looking for the money to pay for 
this. More and more people are becoming addicted to the 
prescription pain killers like OxyContin. And more what is most 
troubling is that more and more young children are turning to 
these drugs at a very early age.
    Now, the good news is that Barre like a lot of other 
Vermont communities is addressing these problems. You're not 
hiding from it. You've worked with state and Federal partners, 
you also worked with schools and community groups that focus on 
mentoring and prevention to try to ensure that our children 
don't become involved with these drugs in the first place.
    I mean, it's a lot more important if we can stop them from 
being involved to begin with than to try to figure out what to 
do after the fact.
    We'll be hearing from Colonel L'Esperance later about this.
    So I will put my whole statement in the record. Because I 
really want to hear from you. But it is mostly to be able to 
say that we need to hear what is going on in other parts of the 
country. Obviously I have a particular interest in Vermont. But 
other members of the Senate Judiciary Committee are panning out 
in other parts of the country to hear from state and local 
communities.
    So let me yield to Senator Whitehouse, my colleague from--
not only my colleague from Rhode Island, but a very, very good 
friend.

 STATEMENT OF HON. SHELDON WHTEHOUSE, A U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Well, thank you, Chairman. My name is 
Sheldon Whitehouse and unlike Chairman Leahy, I know almost no 
one here. Which actually is a bit of a surprise considering the 
number of people that Chairman Leahy brings down from Vermont 
to testify at our hearings and how often he talks about 
Vermont.
    As many of you know, he's quite a good photographer and 
he's always showing photographs of Vermont, often with his 
grandchildren in the foreground. So, I feel a little bit on 
home turf here even though I'm from Rhode Island. But I 
appreciate his invitation to be here. It's wonderful to see him 
in his natural habitat. And it is important for states like 
Rhode Island and Vermont to have these hearings because a great 
deal of our law enforcement effort does take place in small 
communities where the structure of the community is different, 
where people can come together more effectively. And it's 
interesting to me to see how programs like the HIDTA program, 
which works very, very effectively in Rhode Island, at work in 
other small communities. So I look forward to the hearing.
    I thank the Mayor and the other witnesses for their 
testimony. And it's a great pleasure to be with all of you.
    Chairman Leahy. Thank you very much. I also noticed I 
should have mentioned the U.S. Attorney Chris Cofin is here. He 
came in with U.S. Marshal Dave Demag.
    Our first witness is Mayor Thomas Lauzon. I always 
mispronounce that and I apologize. I usually call him Tom 
because when we see each others on the street. He was first 
elected in 2006. He's the 39th Mayor of Barre, Vermont. He's an 
active member of the community. He served as President of the 
Barre Lions Club, Chairman of the Barre City School Board, 
Treasurer and Board Member of the Barre Partnership, Board 
Member of the Barre Opera House, here in the great Saint 
Michaels College. Always happy to see somebody from Saint 
Mike's. He became a certified public accountant; currently a 
partner at Salvador and Babbick in Barre.
    Please go ahead, Mr. Mayor.

        STATEMENT OF MAYOR THOMAS LAUZON, BARRE, VERMONT

    Mayor Lauzon. Thank you, sir.
    Mr. Chairman, Senator Whitehouse, Director Kerlikowske, 
friends, on behalf of the city of Barre I extend a warm welcome 
and sincere thanks for the opportunity to discuss community 
efforts to counter drug-related crime in rural America.
    I want to extend my thanks, also, Mr. Chairman, to your 
staff. From the very first phone call since I took office 4 
years ago, they have been generous and sincere with their 
assistance and concern for Barre, for Vermont, and for America.
    The offer to serve as host for this hearing was no 
exception. During our initial telephone conversation, Maggie 
Gendron asked me if I would mind hosting a hearing of the U.S. 
Senate Judiciary Committee. She told me the hearing would focus 
on drug addiction and drug-related crimes in rural America. I 
was and remain grateful for the opportunity.
    At the time it struck me as somewhat peculiar that the 
Chairman of the U.S. Senate Judiciary Committee would ask a 
mayor for permission to hold a hearing in his community. I 
thought at the time that you were simply being polite because 
that's in your nature. It took me a while to consider the 
possibility that perhaps some communities would rather not host 
a hearing on drug addiction and drug-related crimes in their 
town. That perhaps some believe that talking about drug 
problems in their communities will cast them unfavorably or is 
an admittance of failure. I do not subscribe to that theory.
    We cannot solve a problem if we are not willing to identify 
it and talk about it openly. In order to solve our problems we 
need to be honest about their existence. We need to be accurate 
in our assessment, and we need to be expedient in our actions.
    An addict in Burlington should be of concern to the 
citizens of Stowe. A victim in Woodstock should be of concern 
to the citizens of Brattleboro. As the fastest aging state in 
the nation, Vermont cannot afford to lose the unrealized 
potential of young lives to drug addiction and drug-related 
crimes. With increasing demands on our resources, we cannot 
afford policies that are not proactive.
    Mr. Chairman, you have long advocated for and promoted a 
three-pronged approach to combating rising crime levels in 
America; prevention, treatment, and enforcement. I believe your 
approach is both sound and proven.
    Of the three approaches, I am perhaps best known for my 
views on enforcement. And that's not by choice. As a society we 
have a fascination with enforcement and punishment. I've 
observed during my tenure in office that sound bytes relating 
to enforcement receive much more attention than sound bytes 
relating to prevention and treatment. In my opinion, that needs 
to change.
    While enforcement is a necessary component in our efforts 
to reduce crime in America, it does not, in and of itself, 
solve the problem. Enforcement generally occurs after damage 
has occurred. My strong preference is to focus on prevention 
and treatment. Prevention and successful treatment are more 
cost effective and yield more desirable results.
    Treatment, unlike--like enforcement, occurs after damage 
occurs. But unlike enforcement, treatment offers recovering 
addicts a positive end result.
    In my opinion aggressive prevention is critical to 
mitigating the effects of drug addiction and drug crimes in 
America. While we were experiencing some positive trends within 
several categories of recreational drug use among our younger 
citizens, the sharp increase in prescription drug abuse has me 
especially concerned.
    According to the 2009 Monitoring the Future Survey, non-
medical use of Vicodin and OxyContin is increasing among those 
aged 12 or older and is roughly even with those who smoke 
marijuana. These drugs are highly addictive and create a 
dependence that is physiologically and psychologically very 
similar to heroin. Appropriately OxyContin is referred to as 
``killer'' on the streets. Left unchecked, these trends will 
result in thousands of overdose deaths and millions of dollars 
in treatment and incarceration costs across America.
    OxyContin is a pain management drug. While it mitigates the 
effect of pain and disease, it does not prevent or cure 
disease. It was first introduced by the manufacturer in 1995. 
In 2002, the Director of the Office of New Drugs for the FDA 
testified before the Senate Committee on Health, Education, 
Labor and Pensions and recognized OxyContin as a valuable 
product when used properly.
    The Director went on to testify that the FDA was working 
closely with the manufacturer to take appropriate action to 
curb the misuse and abuse of OxyContin.
    In the 8 years since that testimony, the trends relating to 
misuse have become increasingly troubling. I believe we need to 
reexamine the cost benefit analysis of OxyContin manufacture 
and distribution as it relates to increased illegal use and 
distribution.
    Last, I believe we need to be more vigilant in identifying 
young people at risk and more inclusive in our approach to 
prevention. I believe that in addition to our continued focus 
on an education of young people at risk, we need to focus on 
their families and offer additional counseling in support. We 
need to mitigate the factors that place our young people at 
risk. More appropriate, I believe family counseling and support 
should be a requirement rather than a choice.
    In closing, the struggles we talk about today do not define 
Barre, or Vermont, or America. We are defined by our potential. 
We are defined by those who defy the odds and rise above 
challenging circumstances. Most importantly, we are defined by 
the exceptional people, many of whom you will hear from today 
and thousands more who are hard at work at this very second 
helping those who are struggling with addiction or crime.
    Thank you.
    [The prepared statement of Mayor Thomas Lauzon appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Mr. Mayor. The request to 
come here was meant as more than a courtesy. Barre is a very 
special place as you know. Not only was my father born here, 
but it's a--it's always--growing up in Montpelier, it's always 
been a very special area. I recall going to the stone sheds 
with my grandfather, a stone carver, and it--and you have--we 
have talked about this a number of times and I'm glad to see 
the problems is being faced. I'm also glad to see what you said 
about it has to be an effort on a whole lot of levels.
    Senator Whitehouse, did you have any?
    Senator Whitehouse. No, I just want to thank the Mayor for 
his statement. I think the matrix of honest assessment, 
accurate definition, and expedient response is a very good one 
to apply to, not only this, but other problems. And I wish you 
well.
    Mayor Lauzon. Thank you, sir.
    Chairman Leahy. Thank you.
    As I might say, one of the events of having these hearings, 
we have a number of people from the Senate Judiciary Committee 
staff who get a chance to come up to Vermont. So I don't get 
all of the--I don't get to do it all by myself. And I love 
having them all here.
    The next witness or if I can call forward Director 
Kerlikowske and Colonel L'Esperance, Barbara Floersch, Susan, 
and I'm--and with Susan I intentionally left off the last name 
at her request, and Demartin Quadros.
    I should tell you, we'll begin with Gil Kerlikowske. He was 
confirmed by the Senate in May 2009, one of the first members 
of the Obama administration to be confirmed and he was 
confirmed unanimously as the Director of the Office of National 
Drug Control Policy. That means he coordinates all aspects of 
Federal drug control programs and implements the President's 
national drug control strategy. He is a 37-year veteran of law 
enforcement. He served for nearly a decade as chief of police 
in Seattle, Washington. He epitomizes law enforcement in my 
mind.
    In addition to his extensive experience with state and 
local law enforcement, he served as the Deputy Director of the 
COPS Office at the U.S. Department of Justice. He was elected 
twice to be president of the major cities chiefs association. 
He was also elected president of the Police Executive Research 
Forum. He holds a BA and an MA in criminal justice from the 
University of South Florida, and is a graduate of the FBI 
National Executive Institute in Quantico, Virginia.
    Director, please go ahead, sir.

   STATEMENT OF R. GIL KERLIKOWSKE, DIRECTOR, NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Kerlikowske. Thank you Mr. Chairman and Senator 
Whitehouse for the invitation to come to Vermont and to 
participate in today's discussion on a very important issue. I 
look forward to learning more from the other witnesses that are 
here about the problems in Vermont. I applaud the Mayor and the 
city of Barre for taking this issue on and holding this 
hearing.
    The Obama administration understands that addiction is a 
disease and that prevention, treatment and law enforcement must 
all be included as part of a comprehensive strategy to stop 
drug use, and to help those who need it, and to ensure public 
safety.
    In the coming days we will release the administration's 
first national drug control strategy. It will set forth 
concrete goals to reduce drug use and its consequences and I 
look forward to working together as we implement the ambitious 
plans and achieve the specific goals that it contains.
    Prevention will be a key focal point of our approach. And 
as you all know well, prevention is a critical component of 
curtailing drug use. In particular for this administration, 
programs at the community level are a key priority. It is well 
established that community-based efforts have the unique 
ability and perspective to identify local substance abuse 
problems. And, as has been demonstrated here and throughout New 
England, community leaders are well suited to design and 
implement solutions that is best suited to the local need.
    Local problems demand locally driven solutions. And ONDCP's 
Drug Free Community support program is one of the leading local 
community prevention program efforts here in Vermont.
    And I would like to acknowledge Senator Leahy's strong 
support of this program for a very long time. As well as the 
work of so many participating in these anti-drug coalitions.
    Thanks to Congressional support, ONDCP'S drug-free 
communities program supports 14 different coalitions in Vermont 
that totals nearly $1.3 million in fiscal year 2009. Bringing 
together youth, parents, schools, businesses, as well as law 
enforcement and volunteers, these coalitions depend upon the 
participation of these wide range of stakeholders to reduce 
substance abuse. While we must remain vigilant in our efforts, 
I am pleased to report that these programs have demonstrated 
promising results.
    We made progress in our efforts to engage parents and 
change young people's perceptions of the risk of substance use 
while lowering alcohol and drug use rates. There has also been 
significant achievements in addressing methamphetamine 
production and prescription drug diversion through the task 
force approach.
    In New England, high intensity drug trafficking area, the 
HIDTA program, provides drug intelligence and investigative 
training to Vermont state and local officers in ensuring the 
most effective use of resources to identify and disrupt drug 
trafficking in the state.
    In addition the ONDCP HIDTA program supports regional 
prevention and treatment efforts. It's critical and it's to be 
commended to see state and local law enforcement engaging in 
effective collaboration with local partners while ensuring that 
individuals entering the criminal justice system can access 
needed treatment services when that is appropriate.
    And for those struggling with drug addiction, the 
administration also supports alternatives to incarceration such 
as drug courts, probationary programs like Hawaii's HOPE 
program and others.
    There are three drug courts for adults and one for 
juveniles that currently operate in Vermont. They have 
demonstrated remarkable results in reducing incarceration for 
drug offenders and improving treatment outcomes for their 
clients.
    Rhode Island's four adult and four juvenile courts have 
shown similar success and we applaud these successful efforts 
and remain committed to their continued expansion.
    Across the country rural America is facing a number of 
unique challenges related to the use and abuse of alcohol and 
drugs. The Obama administration is dedicated to identifying 
these problems, working closely with Federal, state, and local 
leaders to identify and implement the best solutions as quickly 
and as effectively as possible.
    We know that substance abuse and addiction are in the 
background of so many of the other negative social consequences 
and no single approach will be effective alone. Instead, we 
must focus on prevention, treatment, enforcement, and 
interdiction as essential priorities in an overall strategy.
    I look forward to working closely with you and your 
colleagues in Washington, those participating in today's 
hearing to address these important issues in our rural 
communities. And I thank you for the opportunity to join you 
today.
    I request that my full written statement be included in the 
hearing record and I look forward to your questions. Thank you, 
Mr. Chairman.
    [The prepared statement of R. Gil Kerlikowske appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Director, and your full 
statement will be made part of the record. What we do here is 
meet the witnesses and then go to questions.
    The next is Colonel Tom L'Esperance. The Colonel is a 23-
year veteran of Vermont law enforcement. He was named commander 
of the Vermont State Police in May 2009. He and I worked 
together over the years on many, many issues. He has worked 
with both the uniformed and the criminal divisions of the 
force, specialized in narcotics investigations, in criminal 
highway interdiction. He's worked extensively with the multi-
agency Vermont Drug Task Force including as an undercover 
officer and field supervisor.
    You are not going to be able to be an undercover officer 
anymore, you understand that, don't you Colonel?
    Col. L'Esperance. Yes, sir; yes, I do.
    [Laughter.]
    Chairman Leahy. And has his bachelors degree in criminal 
justice from Champlain College in Burlington. Please, go ahead, 
Colonel.

 STATEMENT OF COLONEL TOM L'ESPERANCE, DIRECTOR, VERMONT STATE 
                   POLICE, WATERBURY, VERMONT

    Col. L'Esperance. Thank you, Senator. I would like to start 
with thanking Senator Leahy and Senator Whitehouse for the 
opportunity to appear before the Senate Judiciary Committee to 
address drug-related crime in rural America, specifically in 
Vermont.
    As part of my responsibilities as the director of the state 
police I oversee the administration of the Vermont Drug Task 
Force, a multi jurisdictional organization consisting of state, 
county, and local offices whose responsibility is to 
enforcement of our drug laws.
    My perspective is unique not only because I see the 
tremendous work being done every day by the Drug Task Force, as 
director, but also because I spent a significant portion of my 
career assigned there as an investigative supervisor and 
commander. Throughout that time I can say without hesitation 
that the Drug Task Force and all of its achievements would not 
exist today without the unwavering support of Senator Leahy, 
the Douglas administration, and the Vermont legislature as a 
whole. For that support, Senator, I am deeply appreciative.
    From a statewide law enforcement perspective, the impact 
drug abuse and drug-related crimes have had upon our 
community--communities is substantial. After looking at all the 
data, however, one thing is clear, if we do not focus on 
reducing the demand for drugs in Vermont, we will not be 
successful in reducing the associated violent crime.
    As a rural state we face unique challenges in our efforts 
to curb drug crime and the effects they have on our citizens. 
We do not have the luxury of the vast resources that exist in 
urban cities or suburban regions. So to be effective we must 
pool our resources and collaborate together in order to solve 
these problems.
    Although it can be difficult to find solutions in a rural 
state such as Vermont, the fundamentals of illegal drug markets 
are the same everywhere. Where there is demand there will 
always be a supply. We cannot ignore this fact and we must work 
to both disrupt the drug trade and reduce demand.
    I can say unequivocally that the Vermont State Police and 
the Vermont Drug Task Force cannot solve this problem alone. 
Not only is it important to work with our partners in law 
enforcement, but we also must continue to build strong 
relationships with our governmental and nongovernmental 
organizations in our effort to drive down demand and reduce the 
influx of drugs into the state.
    I strongly believe in and support the three-tiered approach 
to reducing drug-related crimes in Vermont. The first tier 
includes a continues effort by law enforcement to investigate 
and dismantle drug trafficking organizations; especially those 
that profit from the drug trade.
    The second tier focuses on ensuring that drug users and 
drug addicts receive treatment by drug counselors in treatment 
centers. When we reduce the number of people with drug 
addictions, the demand for these drugs will decrease as well.
    The third and final tier includes educating all people on 
the realities of drug abuse. Particularly, we must dispel many 
myths associated with the use of prescription drugs amongst the 
youngest members of our society.
    The multi-tiered approach is not a new concept. It was 
implemented in Vermont with great success almost a decade ago 
after the state was hit hard with the emergence of heroin. 
Several years of widespread focus using this strategy resulted 
in substantial drops of heroin arrests and for a period of time 
the demand for the drug subsided.
    Although we made great strides against heroin, we know that 
powerful pain medication, Oxicodone commonly found in the 
prescription drug OxyContin quickly moved in to take its place 
on the street. The diversion of prescription narcotics is one 
of the greatest challenges we now face in Vermont. OxyContin 
has become as widespread and available as heroin or crack 
cocaine.
    With the increase in demand for narcotics such as OxyContin 
we also see a spike in the number of heroin arrests statewide. 
In the past 16 months there has been a 115 percent increase in 
the number of heroin cases conducted by the Drug Task Force. 
This can be contributed in part to the increase on OxyContin 
addictions in the state and the fact the comparatively street 
value of a bag of heroin is generally less than half the value 
of an 80 milligram OxyContin.
    Approximately 4 months ago after this Committee held a 
field hearing in St. Albans, the Drug Task Force broke up one 
of the largest distribution rings that diverted OxyContin we've 
ever seen in this state. This group was responsible for 
bringing thousands of OxyContin pills into the state every 
week. Despite the challenges associated with prescription drug 
abuse, it continues to be my belief that if we maintain a 
strong focus on all highly addictive drugs, using the combined 
strategy of enforcement, treatment, and education we should be 
able to duplicate our successes from years ago.
    Although we are seeing increases in specific categories 
such as prescription drugs and more recently a resurgence of 
heroin, we cannot forget the many achievements that law 
enforcement has made over the years. The work performed by the 
Drug Task Force has been instrumental in targeting mid- to 
high-level drug traffickers in the state. The Drug Task Force 
provides a specialized valuable resource to state and local 
enforcement agencies.
    It uses a model that shares information and manpower 
resources to address a specific problem spanning all 
jurisdictions. Time and time again the task force more than 
proved to be one of the most successful management tools used 
by law enforcement today in Vermont and across the nation.
    This model has worked so well with drug enforcement in the 
state, it is now being applied to the organizational structure 
of our special investigation units and special teams within the 
state police.
    The mission of the state police and Drug Task Force is 
broad in scope. Because the nature of our work encompasses the 
entire state, we are not always involved in the day-to-day 
interactions the local police have with their communities. From 
our perspective, however, we continue to see strong local 
support after every large-scale enforcement operation we 
conduct. Communities like Barre, Rutland, and St. Albans which 
may at times feel overwhelmed by drug crimes come together 
after these enforcement operations to develop local solutions 
that help maintain the safety of this city.
    Additionally, as part of our statewide drug enforcement 
strategy the state police have also been participating in the 
national criminal enforcement effort with the domestic highway 
enforcement project. The funding for this project has been made 
available through the Office of National Drug Control Policy.
    Last, our efforts to curtail the wave of methamphetamine 
production that has swept through most of the Nation appears to 
be working in Vermont. Although meth labs occasionally turn up, 
we were able to get ahead of this problem by working with our 
Department of Health and professionals who dedicate themselves 
to treatment to enact tough precursor laws that have been 
instrumental in slowing down the spread of methamphetamine.
    We will continue to be vigilant in our efforts to control 
methamphetamine production by working closely with the United 
States Attorney's Office in the Drug Enforcement Administration 
to assure that the meth labs do not take hold.
    As we move forward I will continue to rely on the 
tremendous support we received and continue to receive from the 
Federal Government. Without the funding secured by Senator 
Leahy over the years our ability to operate the Drug Task Force 
at the level of success it enjoys today would not be possible. 
Subsequently our ability--our ability to positively impact 
local communities in the rural sections of the state would be 
severely diminished. With your help we continue to focus on our 
mission of disrupting all drug trade throughout the state.
    I would like to thank, again, Senator Leahy, and the entire 
Committee for the opportunity to testify at today's hearing.
    [The prepared statement of Colonel Tom L'Esperance appears 
as a submission for the record.]
    Chairman Leahy. Thank you, Colonel. One thing I should have 
asked before. Can everybody hear all right? How about you 
students up there? Raise your hand if you can hear?
    [Showing of hands.]
    Chairman Leahy. Thank you. I always wonder about when we're 
having one of these things if somebody will say, ``can 
everybody hear all right'' and obviously if they can't there's 
no way they're going to be able to answer. But----
    [Laughter.]
    Chairman Leahy [continuing]. Thank you.
    And thank you very much, Colonel. And we are going to go 
back to this, but I liked very much what you said about pooling 
the resources. If it was ever essential anywhere, it's 
essential in a small state. And I see the director shaking his 
head yes he understands from his own experience.
    Our next witness is Barbara Floersch who has worked with 
the Washington County Youth Service Bureau and the Boys and 
Girls Club for the past 33 years. The Youth Service Bureau 
assists around 2,500 youth in Washington County each year, up 
to 10,000 youth through its statewide efforts. She is now the 
associate director of the organization. So she plans to 
implement the wide variety of programs and services to support 
young people as they go through that transition into being 
young adults. And she has her BA from Norwich University just a 
few miles away.
    Please go ahead, Ms. Floersch.

 STATEMENT OF BARBARA FLOERSCH, ASSOCIATE DIRECTOR, WASHINGTON 
 COUNTY YOUTH SERVICE BUREAU/BOYS & GIRLS CLUB, MONTPELIER, VT

    Ms. Floersch. Senator Leahy, Senator Whitehouse, thank you 
for the opportunity to speak today. The Washington County Youth 
Service Bureau, Boys and Girls Club was established in 1974 and 
I joined the Bureau in 1977. For the past 33 years I have 
worked to develop services to meet the needs of young people in 
this county and throughout the state.
    The Youth Service Bureau Boys and Girls Club is one of our 
community's effective efforts to combat drug-related crime.
    Here in Washington County we serve about 2,500 young people 
and their families every year and through our statewide efforts 
we serve about 10,000 others. Locally we provide services to 
runaway youth and their families, temporary emergency shelter 
to youth in crisis, transitional living support to homeless 
youth, adolescent substance abuse prevention and treatment 
services that are funded partially through a grant from the 
Vermont Department of Health, SAMSA pass-through money. We 
provide assistance to teen parents and their children. We have 
a teen center and after-school program, a peer outreach 
program, a program to connect at-risk youth with green jobs, 
and a residential transitional living program for young men 
returning from Barre City jail. We also have a 24/7 crisis 
service for young people and families.
    On a statewide basis, the Youth Service Bureau started and 
now administers the Vermont Coalition of Runaway and Homeless 
Youth Programs that involves 13 organizations throughout the 
state. We also operate the Vermont Coalition of Teen Centers 
that serves about 30 teen centers in Vermont and we have 
Americorp and Vista programs that place about 50 volunteers in 
youth-serving organizations throughout Vermont every year.
    As I have done my work over the years, I have continually 
tracked research about why young people succeed or they don't. 
My testimony here today is based on my experience at the Youth 
Service Bureau, but also research by people like J. D. Hawkins, 
and R. F. Catalano, Larry Brendtro, Stephen Benson of the 
(coughing) Institute. I have submitted a bibliography of that 
research along with my testimony.
    Chairman Leahy. Thank you.
    Ms. Floersch. Basically preventing drug abuse, crime and 
other social ills can only be accomplished through actions that 
promote physical, mental, and spiritual health and well being. 
When young people do not perceive their own promise, are 
emotionally maimed, are estranged from their communities that 
creates crime. It creates wounded children who self-medicate 
with drugs and who have nothing to lose. The well-being of 
children and well-being of the community cannot be separated.
    In Washington County we're fighting for our children which 
means we're also fighting for our communities.
    New Directions coalitions in Barre, Cabot, and Montpelier 
are promoting a culture of community wellness that's free of 
substance abuse. These coalitions are also funded by the 
Vermont Department of Health through SAMSA funds from the 
Federal Government.
    The Youth Service Bureau Cityscape After-school Program 
operates at Barre City Middle School. Cityscape is a Boys and 
Girls Club site and a 21st Century Community Learning Center. 
The state department of education's evaluation of 25th 
Century--21st Century Learning Center Programs shows that 
quality after-school activities help young people succeed in 
school, a powerful research-based protective factor against 
substance abuse.
    The Community Connections Program operates in the 
Washington Central Supervisory Union and in Montpelier also to 
provide quality out-of-school time experiences to help kids 
succeed.
    The Basement Teen Center in Montpelier and North field Teen 
Center are Boys & Girls Club sites. They're giving teens a 
safe, supervised, substance-free place to hang out, learn 
leadership skills, and have fun while forming good 
relationships with strong role models.
    Community--Central Vermont Community Action Council 
educates teen parents, is providing funds to the Youth Service 
Bureau through a Department of Labor grant to prepare at-risk 
youth for green jobs and work fervently to address both the 
causes and effects of poverty.
    Our Washington County Parent Child Center is working with 
young parents and their children--young children and their 
parents. The Community Justice Centers in Barre and in 
Montpelier are bringing restorative approaches to address 
conflicts and redress wrongs.
    The Youth Service Bureau's Return House is a residential 
transitional living program for young male offenders age 18 to 
22 who are returning to Barre City from jail. Return House is 
staffed 24/7 and in additional to supervision provides life-
skills training, support in finding and retaining a job, 
substance abuse treatment, mental health counseling, positive 
leisure activities and community service opportunities. Return 
House is the only program of its kind in the state and in the 
past 4 years since it opened, not one of its participants has 
committed a new crime.
    In spite of our successes, some young people are still 
falling through the cracks and living in a harsh and dangerous 
reality. At this time, the most porous spot in Vermont's safety 
net and the most perilous point in the long crossing to 
adulthood is for transition-age youth, those n the ages of 17 
and 25.
    At every point in a child's life, the opportunity for 
health and success is precariously balanced with the challenges 
that could snowball to produce alienation, hopelessness, 
substance abuse, and crime. There is a strong, committed 
service system for young children and school-age children. It 
needs more resources, but it does exist. But by the time kids 
are in their late teens or have become young adults, there 
aren't many people left to pick them up if they fall down. It's 
true that older teens and young adults who are troubled can be 
hard to help. They're pretty good a burning bridges. But as a 
community we can't give up on them.
    The Youth Service Bureau works daily with young people 
between the ages of 17 and 25 who are in crisis and who have no 
supervisor system. Each year our transitional living program 
for homeless youth helps about 150 young people. But that 
program is dreadfully underfunded and the reality is, there are 
many pressing needs that we can't meet.
    The words ``homeless teen'' are sobering. But if you take a 
moment to picture a pregnant 17-year-old sleeping in the 
hallway of an apartment building or an 18-year-old man sleeping 
in an abandoned car, then the real impact on young people and 
the impact on our community comes into sharper focus. Eighteen 
to 25-year-old men are the largest population under the 
supervision of the Vermont Department of Corrections. The 
majority of young men in jail today did not graduate from high 
school, and many have learning disorders. About 95 percent of 
them have substance abuse problems that have not been treated 
and are not now treated in jail. Most have backgrounds of abuse 
and neglect. Many were in foster care.
    The number of women supervised by corrections, while lower, 
has grown. Almost 90 percent have been abused, 95 percent have 
substance abuse problems, and 60 percent have diagnosed mental 
health problems. There are young people--these are the young 
people who fell through the cracks in our support system. And 
helping them make a successful transition back into the 
community from jail is our best chance to help them move their 
lives onto a different track. Our best chance to help them 
become contributors to the community and our best chance to 
stop the in-jail/out-of-jail revolving door that can so easily 
become their life.
    Chairman Leahy. Thank you.
    Ms. Floersch. Again, thank you.
    [The prepared statement of Barbara Floersch appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    The next witness, Susan is a single mother. Her son Mark is 
currently serving in Afghanistan and I might say 
parenthetically, like all of the Vermonters who are serving 
there, we keep them in our prayers and our thoughts. It's a 
difficult time for that.
    She participated in the modular home building program for 3 
months while incarcerated at Northwest State Correctional 
Facility. She has recently started her own business. She was 
also involved in creating a drop-in support group for women 
being released from prison. And I might also add 
parenthetically, it took great courage for you to be here. And 
both Senator Whitehouse and I appreciate that. Please go ahead.

  STATEMENT OF SUSAN, VERMONT WORKS FOR WOMEN'S MODULAR HOME 
CONSTRUCTION PROGRAM AT NORTHWEST STATE CORRECTIONAL FACILITY, 
                      BURLINGTON, VERMONT

    Susan. Thank you. So good morning and thanks for the 
opportunity to testify today. My name is Susan and I'm 42 and 
I'm a single mom. I come from a family with no criminal history 
and no background of substance abuse. But I have served time in 
prison because I have abused alcohol.
    I started drinking and using other drugs when I was 17. I 
started bartending around this time. My use became normal and 
an expected part of my work and social life. I drove regularly 
under the influence and had my first DUI at the age of 19.
    I stopped using all substances when I discovered I was 
pregnant with my son. I sought treatment from the UVM Treatment 
Center and stayed there for 4 years. I then left treatment and 
went back to bartending full time believing I had my use under 
control because I needed the income.
    My son's father and I separated when Mark, my son, was 6 
months old. His father was a huge presence in his life 
throughout his early childhood. Things changed when his father 
remarried and essentially abandoned his son for his new wife. 
Mark started getting in trouble after this and was left to deal 
with his behavior on his own. The emotional and financial 
stress led to a relapse. I was charged with a DUI twice in 1 
year and eventually found myself incarcerated.
    It was then, when I was incarcerated at St. Albans, that I 
found Vermont Works for Women and Building Homes and Building 
Lives, a training program that gave me a purpose and made me 
feel like a person again. I was not left out or forgotten. We 
built modular homes that were sold to affordable housing. Being 
on a crew helped me learn new skills and brush up on some old 
skills I had not used in a long time.
    I was given the chance to learn and teach as well as get 
certified in areas that would later find out to help me find 
work when I had left. The program gave me structure and goals 
which I needed. I worked hard and I learned to trust the other 
women on the crew and build something that I could view every 
day and know that I had accomplished it.
    The program also introduced me to resume and developing 
portfolios for the work we are doing and the skills we had 
learned. I was also supported and prepared by this program that 
I made a decision to start my own painting business with my 
sister when I got out.
    I was released on October 15th of 2009. My son was then and 
is still in the Army serving our country in Afghanistan. 
Returning without him to care for was hard. I had a tendency to 
isolate and knew that would be bad for me. Well, I never had 
the chance because Vermont Works for Women supported me from 
the moment I got out to this very day. If I needed stamps or if 
I needed a ride, or a phone call, support, information on some 
of the supports in the community, they were very helpful, to 
say the least.
    It is really important that we reduce the isolation of 
people who return home from prison, especially those who have 
battled addiction. A lot of the people with whom we come into 
contact upon their release are state employees who have 
authority over our actions. It is very important to have the 
support and community organizations that could be an ally and 
connect me to the resources I need to move forward.
    Because of my experience I recently started a group for 
women who are returning to the community and looking for peer 
support, a group that Vermont Works for Women has helped to 
support. This makes me proud and helps with my feelings of self 
worth and enables me to give back to the community.
    I will close by saying that thanks to the help of all the 
staff of Vermont Works for Women I have launched my own 
business with my sister. We are fully licensed and insured and 
working so hard and so much that we are looking to hire some 
help this summer. I am making healthy choices and working out 
daily. I have changed my diet to reflect my focus on my health. 
I continue individual counseling and I am active in the 
community working for the United Way to do repairs for the 
elderly and facilitating the drop-in support group.
    Thank you.
    [Applause.]
    Chairman Leahy. I am really touched----
    Susan. Thanks.
    Chairman Leahy [continuing]. By what you had to say, but 
also by your courage in being here. I could see my wife, 
Marcel, nodding the same behind you, but it's--we'll come back 
to this, but what you were talking about isolation and having 
the support group so you are not isolated. I can't emphasize 
how important that is in a rural state. It's extraordinarily 
important. But sometimes you can have isolation right in the 
middle of a city too.
    Susan. Yeah.
    Chairman Leahy. So let's not forget that. Thank you very, 
very much.
    Susan. Thank you.
    [The prepared statement of Susan appears as a submission 
for the record.]
    Chairman Leahy. Our next witness is Demartin Quadros, the 
final witness. He's the owner and operator of Dunkin Donuts 
Shops in three Vermont locations including downtown Barre. I 
know that for a fact. As a small business owner in Barre he 
often collaborates with the Downtown Development Committee and 
local law enforcement on how to make Barre a safer place. 
Please, go ahead, sir.

 STATEMENT OF DAMARTIN QUADROS, BUSINESS OWNER, BARRE, VERMONT

    Mr. Quadros. OK. First I would like to thank Senator Leahy 
and Senator Whitehouse for giving me the opportunity to speak. 
I co-own the business with my sister, Susan Covey. It has been 
a family business since 1996. And a lot of people don't know, 
but Dunkin Donuts are all independently owned and operated. I 
have run the Barre location since that time. Over the past 
decade I have seen a lot of change in downtown, especially over 
the last couple of years.
    The mayor and chief have focused there efforts in 
patrolling the downtown area more frequently and more visibly 
with foot patrol. This, I feel, has made a big difference in 
many instances of avoiding certain crime from my prospective; 
especially drug-related activities.
    The biggest challenge we have had in downtown is the 
perceptions of the surrounding communities and our customers. 
Perception is something that takes a long time to change. And 
it's bad and really hurts downtown businesses, especially when 
it's bad.
    Barre is centrally located along with Montpelier and is the 
meeting point, you know, for everything from shopping to 
employment, you know, for all the surrounding communities.
    When it gets into the evening hours, I believe, people 
don't feel safe going downtown. Which from the changes that I 
have seen over the years I believe there has been much 
improvement but if people still perceive it not to be safe then 
that has to be changed. And the community has summer concert 
events and other things that go on which I think is really 
important in bringing the community together.
    And the local law enforcement definitely need to have the 
resources to act as a deterrent and prevent crime from 
happening. Especially when a community like Barre sometimes has 
the added burden due just to where it's located in relation to 
the court system and other downtown businesses and services. 
And I believe being rural like has been addressed today, is one 
of the big reasons it makes it more difficult as far as having 
those resources.
    So, again, to reiterate, it makes it really important that 
the surrounding communities get involved in coming up with 
solutions.
    As a business owner I have taken steps to make my location 
safe and secure. I have added surveillance cameras to my 
parking lot, additionally with lighting for the evening hours 
and that has helped tremendously. And my surveillance system 
has already been used on a couple of occasions in collaboration 
with the local law enforcement to help solve some local crimes. 
And as businesses, I think we play a major part in helping 
deter drug-related crime by taking some of these steps and 
working with fellow businesses to make our downtown safe and 
drug free.
    We depend on our community that's why we are in business to 
serve them, so I want them to feel safe and know that it is 
safe to visit downtown anytime of the day. I believe we are 
getting there and it takes involvement from all of us in the 
community as a whole to make it happen.
    I would like to thank the Senators again for giving me this 
opportunity.
    Chairman Leahy. Thank you. Thank you very much.
    Don't be nervous.
    Mr. Quadros. It's kind of hard. I'm not too used to this.
    [Laughter.]
    [The prepared statement of Demartin Quadros appears as a 
submission for the record.]
    Chairman Leahy. Listen, this has been--I'm going to ask a 
few questions. This has been a superb panel. Again, one of the 
reasons for getting out of Washington when we can.
    I'm going to start with a question for director 
Kerlikowske. And I want to thank you again. I know what your 
schedule is like and to come up here yesterday and meet with us 
and be here, I do appreciate it.
    I'm glad to hear you say that both you and the Obama 
administration recognize what law enforcement officials like 
Colonel L'Esperance has been telling us and what communities 
have been proving for years, that law enforcement alone doesn't 
solve the problem. We have to work together. And do you agree 
that the Federal Government can and actually has to do more to 
support those communities that are tackling the problem with 
the unified approach that includes treatment and prevention and 
rehabilitation along with law enforcement?
    Mr. Kerlikowske. Very much so. There's so much criticism 
right now of the Federal Government, and yet, I spent, as you 
know, the vast majority of my career at the local level. And I 
think as you and many other Senators also agree that the 
solution to the problems they're not always developed within 
the Beltway. I know that will be a surprise too----
    [Laughter.]
    Mr. Kerlikowske. But----
    Chairman Leahy. We'll accept that.
    Mr. Kerlikowske. But I truly believe there is a gray rule 
for the Federal Government particularly in this and that is 
through the support of Drug Free Communities, it's a small 
amount of money, but it really helps people leverage those 
resources. And those Drug Free Communities require that the 
schools, that law enforcement, that community stakeholders all 
come together and that they develop those local solutions. So I 
could not be in more agreement that we can do more and we 
should do more about this problem in support and in leadership, 
but not in directing.
    Chairman Leahy. Thank you. Well, you're going to be 
introducing the new national drug control strategy. Will that 
reflect some of these changes and priorities?
    Mr. Kerlikowske. Very much so, Senator.
    Chairman Leahy. Good. I'm looking forward to that rollout.
    Colonel L'Esperance, I know in the years I was a prosecutor 
we were effective when we had coordination and boy we were 
really hurting when we didn't. So you worked on the task force 
model with state and local county government, tell me why 
that's so important?
    Col. L'Esperane. I think, Senator, that's the most 
effective tool we have in law enforcement, pooling our 
resources together and whether it's the drug task force or 
investigating crimes of a sexual nature against children or 
domestic violence, bringing our best police officers forward, 
men and women who are dedicated to this particular cause. 
Again, whether it's the drug task force or what have you.
    The funding for this process is vital right now. As you 
know, state, county and local funding has dried up while we're 
facing probably the most difficult time I've seen in over 23 
years of being a state trooper. So the Federal funding that 
comes in allows us to continue with this drug task force model 
with this task force model for investigating crimes against 
children, just the task force model in general.
    Chairman Leahy. Well, we saw what it did in one of our more 
publicized and horrible murders here in Vermont a couple years 
ago. In fact, when the director of the FBI, Robert Muller, came 
to Vermont, he made it a point to talk to members of the task 
force and say how important that was.
    I want to go, Susan, if you don't mind, if I could ask you 
a few questions. And, again, I applaud your willingness and 
your courage in testifying here today. You talked about the 
importance of community involvement and helping people escape 
substance abuse. I hope that when you're--what you said will 
give encouragement to others who try to escape substance abuse. 
There are people in this audience who know that you have to 
have people who work together and can help you when you have 
such problems.
    Your experience with Vermont Works for Women really speaks 
to what I feel is important at the local level. I think you 
should be proud of what you've accomplished.
    Susan. I am. Thank you.
    Chairman Leahy. Good for you. And I think Vermont Works for 
Women should be pretty proud.
    If you had somebody and you probably will after this 
testimony, you'll have somebody coming to you with a similar 
story and talk about the situation you were in. What would you 
tell them?
    Susan. Well, there are so many resources out there and 
every town has their resources. They're available, it's just a 
matter of hearing about them or knowing about them. I wouldn't 
have known about Vermont Works for Women, unfortunately, unless 
I was incarcerated. But taking advantage of the programs out 
there, a lot of people don't. I would tell them to look, you 
know, look outside of DOC and-- you know.
    Chairman Leahy. I don't want to put words in your mouth, 
but would it be safe to say you could tell somebody who's been 
incarcerated, that's not the end of the world?
    Susan. Exactly.
    Chairman Leahy. Good for you. I happen to agree with you on 
that. And I----
    Sort of along the same way, Ms. Floersch, you're going to 
see, and you do see a lot of people going in the wrong 
direction. Do you give up, or do you have ways to get them 
back?
    Ms. Floersch. Never give up. When we give up that's when 
they do end up in corrections. And if we give up when they come 
out, and we keep giving up as they go in again and come out, 
then we will have no way to help them have the sort of 
successes as Susan has had. And so we've--the way we don't give 
up is we'll go find them. If they don't show up for a meeting, 
we go find them. And we keep welcoming them back even if they 
keep missing their appointments or doing wrong.
    Chairman Leahy. Well, I think of programs like AA. You have 
people that are sort of the lifeline people, somebody you can 
call, you go out, reach them, bring them back.
    Mr. Quadros, let me ask you, I think this question probably 
answers itself. But, would you agree, No. 1, that law 
enforcement can't do this alone?
    Mr. Quadros. No. Definitely not.
    Chairman Leahy. And second, the business community has to 
be really part of the community in this; do they not?
    Mr. Quadros. They do. That's a big, big part of it.
    Chairman Leahy. I know I talked to the Mayor not only here, 
but in other cities in Vermont. They tell me that when the 
business community comes together with the education community, 
the rehab community, and law enforcement, that the whole is 
greater than the sum of the parts. I mean, together they 
accomplish a great deal more. Would you agree with that?
    Mr. Quadros. Definitely do.
    Chairman Leahy. Thank you. Senator Whitehouse, let me--I 
don't mean to be--please go ahead.
    Senator Whitehouse. Well, I've been very impressed by the 
testimony we've heard about these two programs, the Return 
House and Ms. Floersch, you said that that has a zero 
recidivism rate in 4 years.
    Ms. Floersch. None of the participants have committed new 
crimes. Some have gone back to jail for violation of conditions 
of release----
    Senator Whitehouse. OK.
    Ms. Floersch [continuing]. But have not committed a new 
crime. And so often they will go back and then come back into 
Return House and settle down because they realize----
    Senator Whitehouse. They realize----
    Ms. Floersch [continuing]. that they need to settle down.
    Senator Whitehouse. Yeah. Well, the--it's one of the 
interesting quirks of our justice system that we put enormous 
resources out into patrolling the general community. And we put 
enormous resources into our departments of corrections 
patrolling the incarcerated folks. But when people leave the 
incarcerated environment and come back into the community, 
there is not ordinarily enough support for them. And they are 
usually the folks most likely to recidivate, most likely to 
commit new crimes, most challenging for the communities around 
them, so you would think that that would be an area for greater 
attention and support.
    Clearly what Return House is doing is working. What would 
you describe as the main attributes or characteristics that 
have led to its success? And where does it find its financial 
support?
    Ms. Floersch. Return House would not have been possible 
without support from the U.S. Department of Justice, Senator 
Leahy, and the Department of Corrections here in Vermont. 
Additionally, the Youth Service Bureau, Boys and Girls Club 
raises private funds from foundations to support it. We also 
take all of those other varied services we have at our agency 
and plug in with the young people and Return House so there's 
sort of a wrap-around approach.
    So I would say the success is that we knew we would not go 
into it without 24/7 supervision. Also, that we do, do wrap-
around services with substance abuse treatment, mental health 
treatment, trying to help young people learn good leisure 
skills use. And furthermore, just the collaboration and 
coordination with other agencies. We work with the Department 
of Corrections, we have support, and we have had from the city 
of Bare. And we work with Community Action Food Works, other 
organizations that--so we don't go it alone.
    Senator Whitehouse. How important is the focus on a 
particular age group?
    Ms. Floersch. This age----
    Senator Whitehouse. Could you expand it or do you feel it 
is better to leave it focused on young male adults?
    Ms. Floersch. We focused on young male adults because 
youth--that's the mission of the Youth Service Bureau Boys and 
Girls Club. So we stay within our mission. But specifically, 
young male adults because they are the largest group of people 
incarcerated in Vermont and because they're difficult. They are 
often, because of their life circumstances, when they get out 
they are very likely to recidivate and need a whole lot of 
support to figure out how to get their lives in order.
    Senator Whitehouse. The other program obviously is Vermont 
Works for Women which, Susan, you testified so wonderfully 
about. How did you find out about the program and what can you 
tell us about how it's funded and where it gets its support?
    Susan. Well, I found out about it through when I was 
incarcerated in St. Albans. That's where the modular home 
program is at. So, they recruit people who are incarcerated 
there.
    Their funding I'm not quite sure about because I don't work 
there. But I'm pretty sure it's a bunch of different 
organizations, I would have to----
    Senator Whitehouse. Have to find out?
    Susan. Yeah.
    Senator Whitehouse. OK. Does anybody else know? Barbara, do 
you know?
    Ms. Floersch. No, I don't, but----
    Audience Participant. [Off mic.] I'm with Vermont Works for 
Women.
    Senator Whitehouse. Oh, wonderful.
    Where do you get your money?
    [Laughter.]
    Audience Participant. [Off mic.] Well, it's a patchwork 
quilt that we've knit together with--we have some private 
support and the Department of Corrections helps to fund it, the 
Department of Labor's WEA program helps support participation, 
and--help provide support for the program.
    Chairman Leahy. I will have the staff meet with you after 
and get that full breakdown so we can have it in the record, 
name and everything else. Thank you.
    Senator Whitehouse. Well, congratulations and clearly you 
have a wonderful Ambassador for your program here. I'll reveal 
an inter-senatorial courtesy. During Susan's testimony the 
Chairman passed me a little note saying, ``she is amazing.''
    Susan. Thank you.
    Chairman Leahy. Director Kerlikowske, you've heard some of 
this testimony, you were chief of police at a large city on the 
west coast. Did you hear some things that are not that 
unfamiliar from your own experience when you were a chief?
    Mr. Kerlikowske. In many ways, you're absolutely correct, 
Senator. One of the--one of the great benefits of having been a 
police chief in both Buffalo and also in Seattle was getting to 
see the local communities come together and to make a 
difference, not only in crime, but what I truly believe is 
going to be a model for the future and that's the same level of 
collaboration and cooperation that can be put to the drug 
issue. Right now, as you well know, with health care and other 
issues, it's very difficult to get a lot of attention to the 
drug problem nationally. But we know that all of these families 
have been touched by this. We know that law enforcement is a 
big proponent of a collaborative effort. The President had 
instructed me to get as much input as I could from around the 
country. And this opportunity to be here in Vermont and to hear 
this just adds to my depth and store of knowledge about the 
problem. And I appreciate listening to all of the witnesses 
also.
    Chairman Leahy. You know, it was interesting when the other 
hearings we had I think the first of the series was down in 
Rutland. And the Senators who were there heard things they 
hadn't before. But also the staff of the Senate Judiciary 
Committee that has to work on the legislation got a chance.
    I want to yield back to Senator Whitehouse. Go ahead.
    Senator Whitehouse. Director Kerlikowske, the role of the 
medical community in addressing our national drug problem is 
one that has emerged recently. I think it's been a welcome 
attribute. I'd love to ask you a little bit about how you see 
that role and what you think the Office of National Drug 
Control Policy can do to encourage more engagement and support 
from the medical community for people who are facing what is a, 
very often, fundamentally medical issue of addiction.
    And then if I could ask Colonel L'Esperance, I would be 
interested in your thoughts on your second tier, getting people 
into rehab and all of that. We started a drug court in Rhode 
Island when I was attorney general that was quite effective. 
And I would be interested in asking you what the means are that 
you think are most effective for transitioning people from 
their first exposure to the law enforcement system into that 
rehab and medical system.
    If I could ask Director Kerlikowske to go first.
    Mr. Kerlikowske. I think the key is rolling treatment and 
addiction information into primary health care. As we had the 
opportunity to work through the administration on the health 
care issue, drug abuse and addiction should not be separate 
from other parts of primary health care. And there's a 
wonderful program called ``screening brief intervention 
referral to treatment.'' It teaches every health care 
professional to be able to talk to their patients regardless of 
whether they're looking at a mole or treating a broken finger, 
to ask about that patient's alcohol and drug use. And through 
screening and brief intervention, if we make this kind of thing 
a part of primary health care, we will have a huge issue.
    Educating physicians within medical school about either 
addiction or pain management is another key component.
    Senator Whitehouse. That's helpful.
    Colonel L'Esperance.
    Colonel L'Esperance. Senator, a few years ago we were 
addressing the methamphetamine problem as it moved west to 
east. We formed the Committee with the Department of Health and 
a member of the Department of Health made a pretty profound 
statement to me, that from his perspective the No. 1 referral 
to drug rehab was law enforcement. Which indicated to me that 
certainly we play a vital role in transitioning that person, 
that addict, from the criminal justice system into the 
treatment--treatment arena. I don't think there are any addicts 
out there that say, today is the day I'm going to become a 
heroin addict. I think it takes time and over the course of 
time that they may become involved in the criminal justice 
system.
    But our role, from an enforcement perspective, is to have 
that contact and be proponents of the diversion program here in 
Vermont and other programs that----
    Senator Whitehouse. You use the diversion program here?
    Colonel L'Esperance. There is a diversion program here. It 
has been challenged in the past. And whether it's related to 
legalization of marijuana or other drugs, the diversion program 
may be that first encounter that someone has with someone from 
the treatment side or counseling side. So that is a crucial 
component to not only law enforcement, but the state in 
general, to combat this scourge of drugs.
    Senator Whitehouse. And in your diversion program, if an 
individual is diverted toward a rehab program they remain under 
the supervision of law enforcement until they have successfully 
completed the program; do they not?
    Colonel L'Esperance. If they don't complete the program 
successfully, they get back into the criminal justice system.
    Senator Whitehouse. Yeah.
    Colonel L'Esperance. So there is a component of oversight 
there.
    Senator Whitehouse. That strikes me as being very helpful. 
If you are dealing with nonviolent offenders, it's often in the 
community's best interest to get them through their issues with 
the drug that they are dependent on and back to being 
productive members of the community as rapidly as you can. And 
while I think the role of law enforcement is vital in this 
area, it has to be tempered with the knowledge that sometimes 
the best role of law enforcement is as a spur and a watchdog to 
keep people doing what they should be doing rather than to 
direct them right into the, for instance, the incarcerative 
system where they become a burden on the taxpayer, and if it's 
not necessary for people to be incarcerated, if they are 
capable of putting themselves into a helpful and effective role 
in the community more power to them.
    I think we've seen an example of that today.
    Chairman Leahy. You know, Mayor Lauzon was delighted about 
the fact of bringing this in the community and bringing people 
together talk about it. Let me ask you a question, Colonel, 
because held a--one of these hearings we held, we had a 
pediatrician who came to testify and I remember some eyebrows 
that went up among some of the people in the hearing when he 
talked about the amount of addiction among young people with 
prescription drugs. And that it was not, you know, those people 
in that other neighborhood, boy, have they got problem, but 
rather you may have a problem right at home.
    Are you seeing that?
    Colonel L'Esperance. I think that we could have a task 
force created to just deal with prescription drug abuse, 
distribution, diversion across the state, across the country, 
for that matter. We have found that the Department of Health 
created a prescription drug monitoring program which will, as 
it continues to grow, be extremely effective. But what the 
people in the business to make money have realized is you can 
use the same routes or the same avenues to move cocaine that 
they did prescription drugs. So we found that our typical 
source, cities from outside of the state, are now heavily 
involved in moving prescription drugs into the state. So it has 
gone beyond the diverted drugs from doctor shopping and things 
like that.
    Chairman Leahy. Well, I think one of the--one of the things 
that concerns me is that some--you mentioned from out of state, 
that some may feel that because we are a small state that we 
won't respond. And I think the task force shows that we will. 
And we have to. Whether it's here in Barre, or Montpelier, or 
anywhere else in the state, we have to.
    Senator.
    Senator Whitehouse. I'd love to hear a little bit more 
about HIDTA and how that's working. We have a very good HIDTA 
program in Rhode Island, it was one of the first. It took a lot 
of networking to get it together. In particular, at the time 
there was a certain amount of--suspicion is too strong a word, 
but there wasn't as strong and robust a working relationship 
between the state police and municipal law enforcement as has 
developed since. And I'm wondering, first of all, how is the 
HIDTA project going? What have been its main attributes of 
drawing people together, and has it been a force for improved 
joint effort in the Vermont law enforcement community?
    Colonel L'Esperance. I think that HIDTA was another unique 
entity that has broken down barriers between law enforcement 
agencies. We have a very robust HIDTA, relatively speaking, in 
the Burlington area managed by DEA. We have a trooper assigned 
to it. There are county deputy sheriffs assigned to it along 
with local police who have formed another task force who work 
in conjunction with the Drug Task Force.
    The director of HIDTA was here in the audience, Jay Fallen, 
and he works very hard ensuring that information sharing is 
taking place, deconfliction across New England taking place 
through the HIDTA, the program has been up, if my numbers are 
correct, since the mid- to late 1980s----
    Senator Whitehouse. Uh-huh.
    Colonel L'Esperance [continuing]. In New England. And we 
have worked very closely with the HIDTA and it brought together 
the Agency heads from across New England to create strategies 
together that affect all of them. As I mentioned earlier, the 
source cities we find outside of the state of Vermont, Rhode 
Island, and bringing those agency heads together through the 
HIDTA program has been very effective.
    The funding that comes from the HIDTA program is crucial to 
continue that task force environment in the Burlington area. In 
there is direct funding from the domestic highway enforcement 
arena that comes right into the state police. We're able to 
inundate crime as it crosses the border and work collectively 
with the Drug Task Force in our approaches to the Barre 
community and the St. Albans, and things like that. So, I can't 
say enough good things about the HIDTA program.
    Senator Whitehouse. And we've found that the prospect of 
resources which were fairly considerable through the HIDTA 
program was a significant attraction for the different agencies 
to work together as was the professional prospect of making big 
cases. People like to do that professionally and so they were 
happy to work together. Do you see that as well?
    Colonel L'Esperance. I do. I think that we learn from our 
mistakes over the years that individually we can't solve these 
problems. We have to work collectively across the board whether 
it's the interest border or across state--state lines that 
these strategies that are created across these state lines 
affect the rural communities of northern Vermont as much as 
they do the inner city of Holyoke and Springfield and places 
like that, bringing the agency heads together to create a long-
term strategy has been very effective.
    Senator Whitehouse. Very good. Well, thank you. Thank you, 
Chairman.
    Chairman Leahy. Well, thank you. And, again, I thank Mayor 
Lauzon for having us here. But I also am delighted to look 
around here at the number of people represented, whether it's 
the state police, local police, Federal authorities, others, 
educators, and so on. With the questions we've asked you today, 
did anybody here in the panel want to add anything to this? I 
mean, we could ask questions all day long, but is there 
something we missed? Anybody want to add anything?
    Audience Participant. (Off mike.] Vermont like many 
states----
    Chairman Leahy. Ms. Floersch, would you like to add 
something?
    Ms. Floersch. Only to really thank the Department of 
Justice for the support for Boys and Girls Club Programs. When 
I think about prevention and what we do in prevention, the 
resources that come from DOJ for prevention through the Boys 
and Girls Club are much appreciated, as well as the 
intervention and treatment through Return House.
    Chairman Leahy. We have a couple of folks from the Boys and 
Girls Club who are smiling and nodding yes. I don't think 
they're asking to have a rebuttal to that.
    Anybody else care to----
    Susan. Yes, Senator Leahy.
    Chairman Leahy. Yes, please.
    Susan. The diversion program--I just wanted to let you know 
my son went through that diversion program. He had some tagging 
issues downtown in Burlington and had to go through the 
diversion program and it really worked.
    Chairman Leahy. I'm glad to hear that because I know we had 
Chief Shirling, Mike Shirling testify in Washington recently 
and he was talking about the diversion program and how--I know 
when I was state's attorney, we tried to do this on an ad hoc 
basis. I would have given anything to have had something that 
was set up all the time. Because there are so many cases where 
if you could have something structured short of putting a 
record that's going to follow somebody----
    Susan. He wouldn't have made it into the military without 
the diversion program.
    Chairman Leahy. That's exactly what I was thinking. When 
you're talking about Mark and I--Mark wouldn't be in the 
military today without that.
    Susan. That's right.
    Chairman Leahy. But, you know, there are a number of other 
Marks who are in that same case.
    Without going into too many war stories, one of our major 
commanders overseas came to me, a four star general, told me he 
wanted me to speak with his aide who is not--who at that time 
was a major and will be a general. And a wonderful, wonderful 
soldier. He had been picked up for something that would have 
stopped him from going forward back years ago in Chittening 
County. I watched, I held off the prosecution, held the file, 
watched what he did in school and elsewhere. And after a year 
he came in to see me and wanted to know whether I was going to 
go forward with the case. He recalled and said to the general 
in talking with me, he remembers me tearing up the file and 
dropping it in the wastebasket. But, sometimes those are very 
necessary.
    Anybody else want to add anything?
    [No response.]
    Chairman Leahy. Let me thank all of you and let me also, 
for those who came in later, emphasize, we'll keep the record 
open for a week. That's something we normally don't do that 
long, but for every one of the witnesses, if you want to add 
anything to your testimony or respond to anything that was 
said, but also for any member of the community who would like 
to submit testimony, it will be part of the official Washington 
records.
    I do want to thank my good friend, Sheldon Whitehouse, for 
coming to Vermont. He's done this before for us and he has 
connected so many hearings when unfortunately you are supposed 
to have been about five different places. In fact, I'm going 
back--we're both going back to Washington earlier today than we 
thought we would because of votes, votes tonight. The House of 
Representatives thinks it's time for the U.S. Senate to do some 
of these late-night sessions. And I have a feeling we will.
    But I thank you for being here and I thank you for all the 
times you filled in as Chairman of the Senate Judiciary 
Committee when I've been in other hearings.
    Senator Whitehouse. I'm delighted to have been here. I 
think it's been an excellent panel that has given a broad array 
of views. The one person I didn't ask a question of, I just 
want to take a moment and express my appreciation to Mr. 
Quadros.
    The COPS program, the Community Policing Program, which 
Chairman Leahy had so much to do with establishing, stands on 
the principle that it's really important for the police to 
reach out to the community; not just to show up when a crime 
has been committed, but to be there on the beat day in and day 
out and have those relationships. And that would never work if 
it weren't reciprocal with the community members. So, for a 
community business owner like you to be as engaged is 
extraordinarily helpful and I just wanted to add that before I 
conclude.
    Mr. Quadros. Thank you.
    Chairman Leahy. Oh, I agree with that.
    With that we stand in recess.
    [Whereupon, at 11:02 a.m., the meeting was adjourned.] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
